WAIVER
SUPREME COURT OF THE UNITED STATES
No.

20-1724
Citigroup Global Markets, Inc., et al.

David James Murphy
(Petitioner)

V.

(Respondent)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested by
the Court.
Please check the appropriate box:
I am filing this waiver on behalf of all respondents.
I only represent some respondents. I am filing this waiver on behalf of the following respondent(s):

Please check the appropriate box:
I am a member of the Bar of the Supreme Court of the United States. (Filing Instructions: File a
signed Waiver in the Supreme Court Electronic Filing System. The system will prompt you to enter
your appearance first.)
I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member. (Filing Instructions: Mail the original signed form to: Supreme Court,
Attn: Clerk's Office, 1 First Street, NE, Washington, D.C. 20543).
Signature:
Date:
(Type or print) Name Joseph Baumgarten
Mr.

0 Ms.

Firm

Proskauer Rose LLP

Address

11 Times Square

City & State

New York, New York

Phone

212-969-3002

0 Mrs.

0 Miss

Zip 10036
Email jbaumgarten@proskauer.com

CEIVED
A copy of this form must be sent to petitioner's counsel or to petitioner if pro se. Please indicate be ow RE
name(s) of the recipient(s) of a copy of this form. No additional certificate of service or cover letter iszjoi.1
7 2021
David J. Murphy, petitioner pro se
CC:

d-bH.IFFH.r.sK.

OFFICE j
aUPREM

JUN 1 7 2021

